OFFICE OF INSPECTOR GENERAL


AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
CONTRACT MANAGEMENT
PROCESS

AUDIT REPORT NO. M-000-12-006-P
September 18, 2012




WASHINGTON, D.C.
Office of Inspector General



September 18, 2012

Ms. Chantale Wong
Vice President of Administration and Finance
Millennium Challenge Corporation
1401 H Street, NW
Washington, D.C. 20005

Dear Ms. Wong:

This letter transmits the Office of Inspector General’s report, “Audit of the Millennium Challenge
Corporation’s Contract Management Process.” In finalizing the report, we considered your
written comments on our draft report and included them in Appendix II of this report.

The audit report contains three recommendations to strengthen the Millennium Challenge
Corporation’s management of contracts. We consider that final actions have been reached on
all three.

I appreciate the cooperation and courtesy extended to my staff during this audit.

                                             Sincerely,

                                                    /s/

                                             Richard J. Taylor
                                             Deputy Inspector General for Audit
                                             Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS
Summary of Results................................................................................................................. 1

Audit Findings .......................................................................................................................... 3

     Contract Files Were Not Complete ....................................................................................... 3

     Some Contracting Officer’s Representatives Were Minimally Involved ................................. 4

Evaluation of Management Comments ................................................................................... 5

Appendix I—Scope and Methodology .................................................................................... 6

Appendix II—Management Comments ................................................................................... 8




Abbreviations

The following abbreviations appear in this report:

COR             contracting officer’s representative
CGM             Contracts and Grants Management
FAR             Federal Acquisition Regulation
MCC             Millennium Challenge Corporation
OIG             Office of Inspector General
PM              project monitor
PPLC            Priorities Procurement Action Log and Active Contract Listing
SUMMARY OF RESULTS
The Millennium Challenge Corporation’s (MCC’s) Contracts and Grants Management
(CGM) Division1 includes contracting officers who, according to the Federal Acquisition
Regulation (FAR) Part 2.1, have the “authority to enter into, administer, and/or terminate
contracts.”2 The FAR further states that the contracting officer designates and
authorizes in writing a contracting officer’s representative (COR) “to perform specific
technical or administrative functions” on contracts assigned to them. In addition, MCC’s
Contracts Operating Manual states that “the contracting officer may further delegate
duties to a project monitor [PM] to provide assistance in performing COR duties.”
Designation letters delegate authority to CORs and PMs from the contracting officer and
describe their duties and responsibilities as a COR or PM.

The objective of this audit was to determine whether MCC’s contract management
process ensured that contractors provided quality deliverables. The Office of Inspector
General (OIG) found that MCC designed and implemented a process to ensure quality
deliverables were received from its contractors. The process involved selecting qualified
CORs and PMs and formally delegating authority for contract oversight. The delegations
identified the specific responsibilities of the CORs and PMs and provided them, for
example, the authority to withhold payment from contractors until they produced
acceptable deliverables.

CORs and PMs were appointed to specific contracts because they had educational and
work experience backgrounds on the subject-matter related to the contract. Therefore,
they were able to determine whether the contractor provided quality deliverables.3 For
example, when MCC procured independent engineering services for an energy project in
Tanzania, it assigned a PM who was an electrical engineer and economist who had
worked on Tanzanian infrastructure projects. This combination of education and work
experience put the PM in a unique position to understand the energy project and country
context, and with the opportunity to use this understanding to ensure that the
independent engineer provided a quality deliverable.

MCC issues a delegation letter to the COR and PM setting forth their responsibilities for
contract oversight. The responsibilities include monitoring the contractor’s performance
and verifying whether deliverables meet contract requirements. Each COR and PM is
required to sign the designation letter acknowledging that they accept the responsibilities
set forth in their letters. Their acknowledgement becomes part of the permanent
contract files maintained by MCC. As an example of discharging this responsibility, a
COR withheld payment from a contractor who had submitted a land use analysis of
Malawi that did not meet contract requirements. In another instance, a COR withheld
payment from a contractor until a better quality situational analysis on game
management in Zambia was produced. Ultimately, acceptable analyses were submitted
to MCC by the contractors and payment made for their services.
1
  Section 614 of the Millennium Challenge Act of 2003 states that MCC “may make and perform
contracts, grants, and other agreements . . . as may be necessary for carrying out the functions
of MCC.”
2
  FAR, Part 46, “prescribes policies and procedures to ensure that supplies and services acquired
under Government contract conform to the contract’s quality and quantity requirements.”
3
  The deliverables in the audit team’s sample were usually written reports.


                                                                                               1
OIG found that the CORs and PMs reviewed had taken the required training. The
designation letter states that the COR must have a minimum of 40 hours of training
and must maintain their skills through continuous learning. PMs are required to
complete 17 hours of training. CGM tracks the training that CORs and PMs
complete.

Nevertheless, OIG found that CGM needs to improve its management over hard copy
contract files and to confirm that all CORs are monitoring their contracts properly and not
relying too much on the PMs. The audit found the following:

   Required documents that would provide a complete history of contract transactions
   were missing in the official files (page 3).

   A few CORs were minimally involved in contract management (page 4).

To address these concerns, the report recommends that the CGM managing director:

1. Develop written procedures to ensure contract files are updated and maintained to
   provide a complete history of contract transactions (page 3).

2. Develop written requirements to provide a cross-reference to electronic documents
   that are not maintained in the hardcopy contract files (page 4).

3. Emphasize in writing that contracting officer’s representatives are primarily
   responsible for monitoring the performance and progress of their assigned contracts
   (page 4).

Detailed findings appear in the following section. Appendix I describes the audit scope
and methodology. Appendix II presents MCC’s comments; the exhibits provided are
available upon request. Our evaluation of management comments is on page 5.




                                                                                          2
AUDIT FINDINGS
Contract Files Were
Not Complete
FAR Subpart 4.8 states that the head of each office performing contracting “shall establish
files containing the records of all contractual actions.” It further states that the files contain
“a current chronological list identifying the awarding and successor contracting officers,
with inclusive dates of responsibility.”

Subpart 4.8 also states that if the contract files or file segments are decentralized to
various organizational elements or to other outside offices, “a central control and, if
needed, a locator system should be established to ensure the ability to locate promptly
any contract files.”

The FAR Part 2.1 states that contracting officers designate and authorize in writing
contracting officer’s representatives to perform specific technical or administrative
functions on contracts.

MCC’s hard copy contract files did not contain some records of contractual actions.
Some documents were maintained in MCC’s electronic repository, and others could not
be found in either hard copy or electronic files. The designation letters in 10 of the 16
contract files in the audit sample (about 63 percent) were either missing or incomplete.
For example, for one contract, two designation letters were not signed by the PMs and
another was not signed by the COR.

CGM also did not have a system in place to ensure that the lists in contract files were
updated when new contracting staff members were appointed as CORs and PMs.
Additionally, CGM did not have a cross-reference in the official hard copy contract files
to the electronic repository.

According to MCC, the problems with incomplete contract files occurred because 80
percent of its contract management staff changed. CGM had 20 employees in October
2010; by May 31, 2012, only 4 of them remained in the division. According to a CGM
official, the turnover occurred because of the career opportunities available elsewhere as
a result of a shortage of contract specialists.

As a result, the files did not show who currently has contracting authority over the
contracts. Also the inability to locate contract files promptly could cause delays in
making decisions on contract actions. To address these concerns, this audit makes the
following recommendations.

    Recommendation 1.          We recommend that the Millennium Challenge
    Corporation’s managing director, Contracts and Grants Management Division,
    develop written procedures to ensure contract files are updated in accordance
    with the Federal Acquisition Regulation to provide a complete history of contract
    transactions.




                                                                                                3
   Recommendation 2.              We recommend that the Millennium Challenge
   Corporation’s managing director, Contracts and Grants Management Division,
   develop written requirements to require a cross-reference from the hard copy
   contract files to its electronic document repository.

Some Contracting Officer’s Representatives
Were Minimally Involved
FAR Subpart 1.6 states that the COR “assists in the technical monitoring or
administration of a contract” and “shall maintain a file for each assigned contract,” which
“includes documentation of COR actions taken in accordance with the delegation of
authority.”

According to the Contracts Operations Manual, Section 1.3, “The COR is the primary
party responsible for monitoring performance and progress of assigned contracts.”
However, the contracting officer may further delegate a PM to assist the COR in
monitoring the contractor’s performance. The manual further states that “the PM is
considered a vital assistant to the COR in performance of his [or her] delegated duties.”
The COR’s designation letter states that “the ultimate responsibility for any actions taken
by others assisting the [COR] remains with the [COR]” for the contracts assigned to
them.

Some CORs were minimally involved during contract management. During interviews
the team had with 10 PMs, 3 (30 percent) said they seldom interacted with the COR, if at
all. One PM said the COR depends on the PM, and he only interacted with his COR
when a contract needed to be modified. One COR said he did not resolve problems
himself, but trusted his PMs to resolve them. In one contract, the team found evidence
that a PM, contracting officer, and payor discussed whether to reject a contractor’s
invoice, but could not find any evidence that the COR was involved.

CGM reduced the number of CORs used to manage MCC’s contracts because of
increased COR training requirements in 2011. A CGM official said that reducing the
number of CORs alleviated a significant burden on providing required COR training. As
a result, PMs have undertaken more responsibility in monitoring contracts than what is
delegated to them in their designation letters. However, unless CORs perform their
delegated responsibilities of monitoring their contracts, they risk not being aware of
problems that could affect the quality of the deliverables. To address this concern, this
audit makes the following recommendation.

   Recommendation 3.        We recommend that the Millennium Challenge
   Corporation’s managing director, Contracts and Grants Management Division,
   emphasize in writing that contracting officer’s representatives are primarily
   responsible for the monitoring performance and progress of their assigned
   contracts.




                                                                                         4
EVALUATION OF
MANAGEMENT COMMENTS
MCC provided written comments on the draft report that are included in Appendix II of
this report; the exhibits provided are available upon request. MCC agreed with all three
recommendations, and final actions have been reached on them.

In agreeing with Recommendation 1, MCC provided detailed file indices it established
that described the documents to be included in the contract files. MCC held a training
session in June 2012 for contracting staff that highlighted the importance of following
established practices and reinforced the understanding and use of detailed file indices.

MCC will also ensure that contract file management reviews are conducted as planned.
In addition, MCC plans to include an element in individual performance plans for
contracting staff that sets expectations for maintaining complete contract files no later
than April 30, 2013.

Finally, MCC officials said they would update the file indices to remove any outdated
information no later than December 31, 2012. OIG considers that a management
decision and final action have been reached on this recommendation.

In agreeing with Recommendation 2, MCC developed a standard operating procedure
that describes how contract specialists, contracting officers, and procurement assistants
are to store files and documents in the electronic repository.

MCC also implemented a contract management system with well-developed search
capabilities that provides effective cross-referencing. It also developed a tracking Web
site to further coordinate and capture any COR turnover or information regarding CORs
assigned to certain contracts who are no longer involved.

Finally, MCC now stores CORs’ designation letters with the most recent contract action
for a given contract instead of storing the letters by the COR’s name. OIG considers that
a management decision and final action have been reached on this recommendation.

For Recommendation 3, MCC revised its COR and PM designation letters to require
PMs to provide CORs with regular status updates and, correspondingly, require CORs to
demand regular status from PMs. MCC provided the new designation letters, and they
are being distributed with new contract awards or with changes to CORs and PMs. OIG
considers that a management decision and final action have been reached on this
recommendation.




                                                                                       5
                                                                                      APPENDIX I



SCOPE AND METHODOLOGY
Scope
OIG conducted this audit of MCC’s contract management process in accordance with
generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit
objectives. We believe that the evidence obtained provides that reasonable basis.

MCC awards contracts, grants, and agreements, as necessary, to carry out its functions.
This audit focused on contract amounts worth about $28 million (about 13 percent) from
a universe of about $223 million in contracts that were active from February 2010
through February 2012.

To answer the audit objective, we met with MCC officials to gain an understanding of the
contract management process and to identify any concerns. We analyzed documents
and reports to determine whether MCC’s contracting staff members were monitoring
contractors’ performance and whether deliverables met contract requirements. We
conducted our fieldwork from February 8, 2012, to June 25, 2012, at MCC headquarters
in Washington, D.C.

We relied on MCC’s workload database, which was derived from the Priorities
Procurement Action Log and Active Contract Listing (PPLC) system,4 to select the audit
sample. We verified the data related to those sample contract actions. We traced the
amounts shown in supporting documents to the amounts shown in the database.

We examined the internal control environment by identifying and assessing the relevant
controls on oversight of contract actions. We tested the controls in place for monitoring
contractor performance. In particular, we reviewed CORs’ and PMs’ training records,
designation letters, and certifications to determine whether they were knowledgeable
about contracting guidelines and were authorized to manage contracts and approve
contractors’ invoices.

Methodology
To answer the audit objective, we established audit steps to determine whether MCC
was receiving quality deliverables from contractors. Specifically, we performed the
following:

    Interviewed MCC officials in CGM.

    Judgmentally selected and tested 16 ongoing contracts, valued at about $28 million,
    out of a universe of 2,044 contracts (about 1 percent), valued at about $223 million.


4
 PPLC is a custom-developed database that CGM used to track workload data on contracting actions. Its
primary purpose is for entering pending contract actions, tracking all awarded contract actions, and
collecting performance metrics for MCC reports.


                                                                                                   6
Reviewed and analyzed documentation that supported appointing CORs and PMs,
that they received training, verified and approved contractors’ invoices, and
conducted oversight of the contract.

Reviewed official hard copy contract files for completeness.




                                                                           7
                                                                         APPENDIX II



MANAGEMENT COMMENTS




August 28, 2012

MEMORANDUM

TO:                          Richard Taylor
                             Assistant Inspector General
                             Millennium Challenge Corporation

FROM:                        James R. Blades /s/
                             Managing Director, Contracts and Grants Management
                             Millennium Challenge Corporation

SUBJECT:                     MCC Comments and Management Decision on the Audit
                             of the Millennium Challenge Corporation’s Contract
                             Management Process

This memo serves as the Millennium Challenge Corporation’s comments on the final
draft audit report, as well as the notice of Management Decision (Recommendations 1, 2,
and 3) and notice of Final Action (Recommendations 2 and 3), associated with the Audit
of the Millennium Challenge Corporation's Contract Management Process.

We consider your role vital in helping us to achieve and sustain an effective contract
management process.

Our Management Responses to your recommendations are as follows.

Recommendation No. 1: “We recommend that the Millennium Challenge Corporation’s
Managing Director, Contracts and Grants Management Division, develop written
procedures to ensure contract files are updated in accordance with the Federal
Acquisition Regulation to provide a complete history of contract transactions.”




                                                                                     8
Management Response: We agree with the recommendation. The MCC Contracts and
Grants Management Division (CGM) has a detailed file index describing the documents
to be included in the contract file for action types. These are included as Exhibits 1-4.

The report noted and MCC acknowledges that some documents required by the detailed
indices were not included in every contract file and for every modification. In response,
MCC has taken or will take the following actions:

       CGM held a training session on June 7, 2012 to highlight to contracts staff the
       importance of following established practice and to reinforce the understanding
       and use of the exhibits referenced above.
       CGM will ensure contract file maintenance reviews, which are required in COM
       Chapter 4 (Exhibit 5), are conducted as planned.
       CGM will include an element in individual performance plans for CGM staff that
       sets expectations for maintenance of complete contract files no later than April
       30, 2013.
       CGM will update the indices to remove any outdated information no later than
       December 31, 2012.

This constitutes MCC’s management decision for this recommendation. We anticipate
final action will be complete by April 30, 2013.

Recommendation No. 2: “We recommend that the Millennium Challenge Corporation’s
Managing Director, Contracts and Grants Management Division, develop written
requirements to require a cross reference from the hardcopy contract files to its electronic
document repository.”

Management Response: We agree with the recommendation. Many of the issues related
to this Recommendation were due to the fact that CGM stored Contracting Officer
Representative (COR) designation letters by COR name as opposed to by contract action.
This was due to the large volume of data calls CGM often receives related to naming all
contracts a COR has assigned to them, rather than what COR is assigned to a specific
contract.

In response, MCC has taken the following actions:

       As of the date of this letter, CGM has developed a Standard Operating Procedure
       (SOP), included as Exhibit 6, to address this concern. The SOP describes how
       Contract Specialists, Contracting Officers, and Procurement Assistants are to
       store files and documents in the electronic repository.
       Many of the issues cited are due to CGM’s reliance on a complex shared drive
       system. In recognition of these issues, CGM implemented the CGM Contract
       Management System (CCMS), a Commercial Off the Shelf (COTS) product
       developed by Distributed Solutions, Inc. in February 2012. As an electronic
       contract repository, CCMS has well-developed search capabilities that provide
       effective cross referencing.


                                                                                            9
        As of the date of this letter, a COR Tracking and COR Training SharePoint
        website has been developed between CGM and ASHR to further coordinate and
        capture any COR turnover or information regarding outdated CORs assigned to
        certain contracts.
        As of the date of this letter, CGM already has moved to storing COR designation
        letters with the most recent contract action for a given contract as opposed to
        storing by COR name.

Given the clarity provided by these actions and the improved capabilities of the new
CCMS, we do not think further cross references included in every contract file and every
action specifying the location are necessary.

This constitutes MCC’s Management Decision and Final Action for this
recommendation.

Recommendation No. 3: “We recommend that the Millennium Challenge Corporation’s
Managing Director, Contracts and Grants Management Division, emphasize in writing
that contracting officer’s representatives are primarily responsible for the monitoring
performance and progress of their assigned contracts.”

Management Response: We agree with the recommendation. Project Monitors (PMs)
are critical for the success of MCC’s Contract Management Process, and fulfill a vital
role in the acquisition team as defined in FAR 1.102-3 and 1.102-4. Project Monitors
provide indispensable sector and country expertise, so it is both necessary and essential
for CORs to involve them in critical decision-making and, in areas where the PMs
possess substantial expertise, rely on the PM’s knowledge and judgment.

Nevertheless, CGM recognizes that it should be explicit that PMs have a responsibility to
report to their CORs and likewise that CORs have a responsibility to oversee both the
contractor and their subordinate PMs. Thus, CGM has revised its standard COR and PM
designation letters, included as Exhibits 7 and 8, to require PMs to provide CORs with
regular status updates and, correspondingly, require CORs to demand regular status
updates from PMs. As of the date of this letter, the new designation letters are currently
being distributed to CORs and PMs with new contract awards or with changes to
CORs/PMs.

This constitutes MCC’s Management Decision and Final Action for this
recommendation.

Listing of Exhibits:

   1.   Exhibit 1 – Folder Structure – Contracts
   2.   Exhibit 2 – MCC Checklist for Contract Award File – IAA
   3.   Exhibit 3 – MCC Checklist for Contract Award File – MBO
   4.   Exhibit 4 – MCC Checklist for Contract Award File – PSC
   5.   Exhibit 5 – MCC COM Chapter 04 – Administrative Matters – July 2012



                                                                                            10
6. Exhibit 6 – CCMS – Standard Operating Procedures – Electronic Contract Files
7. Exhibit 7 – COR Designation Letter – Final
8. Exhibit 8 – PM Designation Letter - Final




                                                                                  11
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
